<html>
<title> - CIVIL RIGHTS SERVICES AND DIVERSITY INITIATIVES IN THE COAST GUARD</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
                       CIVIL RIGHTS SERVICES AND
                DIVERSITY INITIATIVES IN THE COAST GUARD

=======================================================================


                                (111-21)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                COAST GUARD AND MARITIME TRANSPORTATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             April 1, 2009

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure



                  U.S. GOVERNMENT PRINTING OFFICE
48-646                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
ELLEN O. TAUSCHER, California        TODD RUSSELL PLATTS, Pennsylvania
LEONARD L. BOSWELL, Iowa             SAM GRAVES, Missouri
TIM HOLDEN, Pennsylvania             BILL SHUSTER, Pennsylvania
BRIAN BAIRD, Washington              JOHN BOOZMAN, Arkansas
RICK LARSEN, Washington              SHELLEY MOORE CAPITO, West 
MICHAEL E. CAPUANO, Massachusetts    Virginia
TIMOTHY H. BISHOP, New York          JIM GERLACH, Pennsylvania
MICHAEL H. MICHAUD, Maine            MARIO DIAZ-BALART, Florida
RUSS CARNAHAN, Missouri              CHARLES W. DENT, Pennsylvania
GRACE F. NAPOLITANO, California      CONNIE MACK, Florida
DANIEL LIPINSKI, Illinois            LYNN A WESTMORELAND, Georgia
MAZIE K. HIRONO, Hawaii              JEAN SCHMIDT, Ohio
JASON ALTMIRE, Pennsylvania          CANDICE S. MILLER, Michigan
TIMOTHY J. WALZ, Minnesota           MARY FALLIN, Oklahoma
HEATH SHULER, North Carolina         VERN BUCHANAN, Florida
MICHAEL A. ARCURI, New York          ROBERT E. LATTA, Ohio
HARRY E. MITCHELL, Arizona           BRETT GUTHRIE, Kentucky
CHRISTOPHER P. CARNEY, Pennsylvania  ANH ``JOSEPH'' CAO, Louisiana
JOHN J. HALL, New York               AARON SCHOCK, Illinois
STEVE KAGEN, Wisconsin               PETE OLSON, Texas
STEVE COHEN, Tennessee
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
PARKER GRIFFITH, Alabama
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico

                                  (ii)



        SUBCOMMITTEE ON COAST GUARD AND MARITIME TRANSPORTATION

                 ELIJAH E. CUMMINGS, Maryland, Chairman

CORRINE BROWN, Florida               FRANK A. LoBIONDO, New Jersey
RICK LARSEN, Washington              DON YOUNG, Alaska
GENE TAYLOR, Mississippi             HOWARD COBLE, North Carolina
BRIAN BAIRD, Washington              VERNON J. EHLERS, Michigan
TIMOTHY H. BISHOP, New York          TODD RUSSELL PLATTS, Pennsylvania
STEVE KAGEN, Wisconsin               PETE OLSON, Texas
MICHAEL E. McMAHON, New York
LAURA A. RICHARDSON, California
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Breckenridge, Rear Admiral Jody A., Assistant Commandant for 
  Human Resources, United States Coast Guard.....................     5
Dickerson, Terri, Director, Office of Civil Rights, United States 
  Coast Guard....................................................     5

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Cummings, Hon. Elijah E., of Maryland............................    41
Thompson, Hon. Bennie G., of Mississippi.........................    49

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Breckenridge, Rear Admiral Jody A................................    53
Dickerson, Terri.................................................    63

                       SUBMISSIONS FOR THE RECORD

United States Coast Guard, response to request from Rep. Cummings    32
[GRAPHIC] [TIFF OMITTED] 48646.001

[GRAPHIC] [TIFF OMITTED] 48646.002

[GRAPHIC] [TIFF OMITTED] 48646.003

[GRAPHIC] [TIFF OMITTED] 48646.004

[GRAPHIC] [TIFF OMITTED] 48646.005

[GRAPHIC] [TIFF OMITTED] 48646.006

[GRAPHIC] [TIFF OMITTED] 48646.007

[GRAPHIC] [TIFF OMITTED] 48646.008

[GRAPHIC] [TIFF OMITTED] 48646.009

[GRAPHIC] [TIFF OMITTED] 48646.010

[GRAPHIC] [TIFF OMITTED] 48646.011

[GRAPHIC] [TIFF OMITTED] 48646.012

[GRAPHIC] [TIFF OMITTED] 48646.013

[GRAPHIC] [TIFF OMITTED] 48646.014

[GRAPHIC] [TIFF OMITTED] 48646.015

[GRAPHIC] [TIFF OMITTED] 48646.016

[GRAPHIC] [TIFF OMITTED] 48646.017

[GRAPHIC] [TIFF OMITTED] 48646.018

[GRAPHIC] [TIFF OMITTED] 48646.019

[GRAPHIC] [TIFF OMITTED] 48646.020



HEARING ON CIVIL RIGHTS SERVICES AND DIVERSITY INITIATIVES IN THE COAST 
                                 GUARD

                              ----------                              


                        Wednesday, April 1, 2009

                  House of Representatives,
    Committee on Transportation and Infrastructure,
   Subcommittee on Coast Guard and Maritime Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 2:45 p.m., in 
Room 2167, Rayburn House Office Building, the Honorable Elijah 
E. Cummings [Chairman of the Subcommittee] presiding.
    Mr. Cummings. This hearing is called to order.
    We convene today to consider the State of the Coast Guard's 
provision of civil rights services to its military and civilian 
workforce and to applicants for employment. We will also 
examine the initiatives being undertaken by the Service to 
support expanded diversity among both its military and civilian 
personnel. As part of that examination, we will assess what the 
Service has done to benchmark its diversity-related initiatives 
following a hearing we held on this subject last year.
    In April 2008, the Director of the Coast Guard's Office of 
Civil Rights asked the Department of Homeland Security to 
commission and supervise an independent assessment of the 
office and of civil rights programs within the Coast Guard. The 
proximate motivation for this request was the posting of 
derogatory blog entries on the web. However, as the 
Subcommittee has come to learn, there have long existed 
challenges far more central to the provision of effective civil 
rights services within the Coast Guard than those discussed 
within the blog comments.
    In February, 2009, Booz Allen Hamilton, the firm ultimately 
commissioned to undertake the study of the Coast Guard Office 
of Civil Rights, issued its report to the Coast Guard which 
subsequently released it to the public.
    I note that the Subcommittee invited Booz Allen Hamilton to 
testify today and also invited its representatives to meet 
privately with staff. They declined both offers citing duty of 
confidentiality to their client and, rather perplexingly, their 
internal policy against lobbying. Despite Booz Allen Hamilton's 
total unresponsiveness to the Subcommittee's inquiries about a 
report it prepared on a Federal agency and for which it 
received compensation from United States taxpayers' funds, the 
firm's report speaks for itself.
    Among other findings, the Booz Allen Hamilton team's review 
identified at the Coast Guard a civil rights program that does 
not fully protect confidential personal information, that does 
not conduct thorough analyses of barriers to equal opportunity 
in employment or develop specific plans to break these barriers 
down, and that has a number of inadequately trained service 
providers who cannot ensure implementation of a complaints 
management process that is in full compliance with regulatory 
requirements.
    While these findings are obviously deeply troubling on 
their own, as the Subcommittee has learned in the extensive 
review of the Coast Guard's civil rights programs, they are 
certainly not new. Previous reviews of the Coast Guard's civil 
rights programs and even the self-assessments the Coast Guard 
submits annually to the Equal Employment Opportunity Commission 
repeatedly identify many of the same problems noted in the Booz 
Allen Hamilton report.
    For example, a 2001 review conducted by KPMG found that:
    One, complaints were not handled in an efficient manner,
    Two, individuals who provided civil rights services as a 
collateral duty showed great variation in quality,
    Three, affirmative action related reports were disseminated 
but report interpretation and action is left up to individual 
unit commands who may or may not have the required time and 
knowledge to legally apply the affirmative action program as a 
factor in hiring, and,
    Four, equal opportunity reviews were being conducted, but 
there were no measures or metrics by which to evaluate local 
command's program performance.
    A review conducted by PriceWaterhouseCoopers more than a 
decade ago concluded that the Coast Guard's ``current civil 
rights program is relatively ineffective at preventing civil 
rights complaints and the current program office at 
headquarters is inefficient in discharging their 
responsibilities.''
    In May 2008, the Equal Employment Opportunity Commission 
sent a feedback letter to the Coast Guard identifying the 
trends it observed in the Coast Guard's annual self-reports 
from fiscal years 2004 through 2006. Again, the comments sound 
very familiar. EEOC stated in its 2004 report, the Coast Guard 
admitted that the ``EEO officials did not have the knowledge, 
skills and abilities to carry out the full duties and 
responsibilities of their positions.''
    In fiscal years 2005 and 2006, the Service ``reported that 
there was insufficient staff to conduct adequate analysis of 
civilian workforce data.''
    And in 2004, 2005, and 2006, the Service noted it ``has not 
implemented an adequate data collection and analysis system and 
had not tracked recruitment efforts.''
    The EEOC found that the Coast Guard's recruitment practices 
for positions in the civilian workforce created unintended 
barriers to diversity.
    Having read all of this, what was perhaps most 
disappointing to me was not just the devastating nature of 
these individual findings but the fact that the problems they 
describe have apparently persisted for nearly a decade. Put 
simply, the picture that emerges from the reports available to 
us shows that despite knowing that its equal opportunity 
programs did not ensure full compliance with the U.S. law and 
regulations, the Coast Guard has taken little to no action to 
ensure full compliance.
    Further, there have apparently been no consequences for 
these failures except perhaps the individual consequences that 
Coast Guard personnel may have borne, some of whom may have 
been denied the opportunity to effectively challenge what they 
may have felt was discriminatory treatment.
    Discrimination is an evil that destroys the dignity of 
fellow human beings and robs them of the opportunity to achieve 
what their abilities would otherwise enable them to achieve. In 
the 21st Century, any agency that tolerates any failure in the 
implementation of effective equal employment opportunity 
processes or in the effective management of complaints is an 
agency that is willing to tolerate the possibility that 
discrimination may exist in its midst. We can do better.
    While I applaud the decision of the Director of the Office 
of Civil Rights to ask for an independent assessment of the 
Coast Guard civil rights practices, it is also obvious that 
further study is not needed, that we have studied this too 
much. We have basically studied it almost to death.
    Back in 2001, the KPMG team that assessed the Coast Guard's 
civil rights program reported that the wide gaps between how 
the Service's equal employment opportunity program was 
described in manuals and how the program was actually 
implemented ``created a perception that the program is not 
necessarily a priority among senior leadership.'' It is long 
past time that these gaps be closed.
    Importantly, as the Booz Allen Hamilton report makes clear, 
successful implementation of the reforms needed to correct the 
gaps that their team found ``will need to be openly endorsed at 
the highest level of the Coast Guard organization to ensure the 
cooperation of and participation by key stakeholders.'' I would 
say that they need to be endorsed by the head of Homeland 
Security and the President of the United States of America.
    I know that the Coast Guard is undertaking a variety of 
initiatives to expand diversity, and I commend the written 
testimony of Admiral Breckenridge which details these efforts. 
I also commend the individual efforts of the Coast Guard 
personnel to support the Service's diversity goals. I note that 
Admiral Allen himself recently visited Morgan State University 
in my district and gave a very inspiring address to students at 
that historically black university.
    What I didn't find in Admiral Breckenridge's testimony, 
however, was a statement that the MD-715 process will now be 
used as intended to identify all barriers to equal access and 
to inform the development of the plans that will eliminate 
these barriers or that a similar process will be implemented on 
the military slide. While I appreciate discussion of an upward 
glide slope, progress cannot be measured until specific goals 
are in place, and to think that goals would need to be defined 
as ``specific representational objectives'' is simply to think 
too narrowly. We are better than that.
    I also commend Director Dickerson's testimony and her 
decision to request the Booz Allen Hamilton review. I emphasize 
that I understand, as the Booz Allen Hamilton report indicates 
and the evidence clearly shows, that many of the problems with 
the Coast Guard's civil rights program have long predated her 
appointment.
    That said, it is now our watch. This is our watch, and the 
failures and the deficiencies that exist with the Coast Guard's 
civil rights programs simply cannot continue. For the Coast 
Guard to truly be semper paratus, always ready, it must take 
all necessary steps to ensure that it is not handicapped by 
discrimination in its ranks or the divisions that 
discrimination produces.
    As I said when I addressed the Coast Guard Academy 
following the discovery of nooses there, diversity and our 
mutual respect for each other are our greatest strengths as a 
Nation. They must necessarily be the greatest strengths of 
those who defend this Nation, but they can be so only when an 
agency makes the achievement of diversity and the provision of 
effective civil rights services a top priority rather than what 
appears to be a second thought.
    With that, I recognize our distinguished Ranking Member, 
Congressman LoBiondo.
    Mr. LoBiondo. Thank you very much, Mr. Chairman, for 
holding this important hearing today.
    The men and women of the Coast Guard come from all regions 
of the Country, all races and all walks of life. The Coast 
Guard serves all of the American people, and the Service must 
continue to take actions to be fully representative of the 
American public at large.
    The Coast Guard has the responsibility to recruit the most 
capable individuals to enter the enlisted and officer corps and 
to retain those individuals and their skill sets. The Service 
also has the responsibility to create a workplace environment 
which supports mission success for all of its members and 
employees.
    I am concerned by the findings of the recent review in the 
Office of Civil Rights which outline a failure to maintain such 
an environment. The report includes several recommendations on 
measures to be taken to address these issues. I am interested 
to hear how the Coast Guard intends to move forward with the 
suggested courses of action.
    I appreciate the Coast Guard's early efforts to address 
these issues, and this Subcommittee stands ready to work with 
the Service to provide resources necessary to further tackle 
this important issue.
    I want to thank the Coast Guard for speaking to these 
issues this afternoon, and I look forward to their testimony.
    Mr. Cummings. Thank you very much.
    I ask unanimous consent that Congressman Bennie Thompson, 
Chairman of the Committee on Homeland Security, who shares the 
Subcommittee's deep concerns about the Coast Guard's civil 
rights services and diversity initiatives, may submit a 
statement for inclusion in the hearing record, and, without 
objection, it is so ordered.
    It is my understanding that Mr. Kagen does not have an 
opening statement. Thank you.
    We are very pleased to welcome Ms. Terri Dickerson who is 
the Director of the Office of Civil Rights with the United 
States Coast Guard.
    Welcome.
    Ms. Dickerson. Thank you.
    Mr. Cummings. And Rear Admiral Jody Breckenridge who is the 
Assistant Commandant for Human Resources with the United States 
Coast Guard.
    We will hear from you, Ms. Dickerson, first, and then we 
will go to the Rear Admiral.

TESTIMONY OF TERRI DICKERSON, DIRECTOR, OFFICE OF CIVIL RIGHTS, 
      UNITED STATES COAST GUARD AND REAR ADMIRAL JODY A. 
BRECKENRIDGE, ASSISTANT COMMANDANT FOR HUMAN RESOURCES, UNITED 
                       STATES COAST GUARD

    Ms. Dickerson. Thank you. Good afternoon, Mr. Chairman and 
distinguished Members of the Committee.
    I am Terri Dickerson, Director of the Coast Guard's Office 
of Civil Rights.
    I request that my written testimony be entered into the 
record.
    Mr. Cummings. Without objection, so ordered.
    Ms. Dickerson. Thank you, sir.
    Mr. Chairman, I ask that you bear four things in mind 
today:
    First, that as Director, I recognized my duty to identify 
and resolve problems in Coast Guard's EEO program. That duty 
led me to quantify my concerns, develop strategies and seek 
validation of them by a third party,
    Second, that I understand that resolving identified 
concerns is critical to a positive EEO climate and a complaint 
process with integrity,
    Third, that I have a plan to address each recommendation 
from the review I commissioned, and I am executing it, and,
    Finally, I can assure you that the Commandant of the Coast 
Guard is personally committed to ensuring I have the resources, 
personnel and senior leadership support to carry out the 
changes needed.
    My commitment to civil rights is borne of my own personal 
experience. In September of 1962, my sisters and I were among a 
few students who integrated the New Orleans Catholic school 
system despite evil threats, slurs and an environment of racial 
bias.
    In 26 years in public, private and non-profit arenas and in 
government Senior Executive Service since 2000, I have been 
personally committed to advancing equal opportunity.
    When hired in 2006, I sought improvement opportunities and 
began to establish new practices and protocols to benefit our 
mission. My headquarters staff consists of 22 full-time 
military and civilian positions.
    We made progress. For example, I terminated the practice of 
liberally providing EEO complaint information to a wide range 
of requesters. While unpopular, the decision safeguards 
statements made by aggrieved parties and witnesses from 
reprisal by management officials, and the officials themselves 
are less vulnerable.
    I set measurable goals at every opportunity and established 
the metrics by which to evaluate progress towards civil rights 
outcomes.
    I determined that recommendations made in previous reviews 
conducted before I arrived had not been fully implemented, 
specifically personnel with EEO titles not actually connected 
to our office. This decentralized structure hindered certifying 
the training and performance of the EEO personnel, consistency 
and timely reporting.
    Consistent with the Coast Guard's ongoing modernization 
efforts, I established a plan to centralize the EEO's structure 
and I provided new guidance.
    Results followed. Last year, we shaved more than a month 
off the average formal complaint processing timeline, and I 
will note that the Coast Guard's integrated military and 
civilian complaint processing structure has been examined by 
other services as a model and that the Air Force has already 
moved to a similar process.
    We launched a monthly newsletter. We improved our EEO self-
evaluation process and cleared backlogged reports.
    While I endeavor to improve the program, the Office of 
Civil Rights and I as the Director became the subject of 
numerous inaccurate allegations on the web. Against the 
backdrop of a need for change and misperceptions, I sought a 
third party perspective assisted by the Department of Homeland 
Security.
    As you will recall, Mr. Chairman, I notified you of my 
intent a year ago this month. And, consistent with the Coast 
Guard's goals of transparency, I kept the workforce informed of 
my actions and posted the review in its entirety when 
published.
    The Booz Allen review validated the concerns I detected and 
offered me some new data points. I have put a team in place to 
prioritize and respond to the recommendations. Of the 53 in the 
report, we have completed 10. Another eight will be fully 
executed immediately upon reorganization, and the rest are on 
track for completion by the end of the year.
    I have proposed a restructuring to the Commandant and 
senior leadership, and I have received direction to move 
forward on a centrally run national program delivered from 
strategic points throughout Coast Guard. This will foster 
consistency, better oversight, faster and more reliable 
service.
    Initial resources and six civilian positions have been 
redirected to our program. Pending validation through a staff 
analysis, I will pursue additional ones.
    To recap, the review validated my concerns and plan of 
action now in full execution, and I have the support of the 
Coast Guard's leadership to carry it through.
    Thank you for this opportunity to testify today, and I will 
be happy to take your questions.
    Mr. Cummings. Thank you very much.
    Ms. Dickerson. Yes, sir.
    Mr. Cummings. Admiral Breckenridge.
    Admiral Breckenridge. Thank you very much, Mr. Chairman.
    Good afternoon, Mr. Chairman and distinguished Members of 
the Committee.
    I am Rear Admiral Jody Breckenridge, the Assistant 
Commandant for Human Resources for the U.S. Coast Guard. It is 
a pleasure to appear before you today to discuss the Coast 
Guard's progress on diversity.
    Mr. Chairman, I request my written testimony be entered 
into the record.
    Mr. Cummings. Without objection, so ordered.
    Admiral Breckenridge. Thank you, sir.
    Mr. Chairman, the Coast Guard recognizes diversity as an 
organizational imperative. Our watch is committed to continue 
building and sustaining a strong and diverse workforce that 
recognizes and values the potential and contributions of all 
employees.
    Today, I would like to provide you with an update on our 
progress in the short six months since I last testified in 
September.
    Before I offer Coast Guard actions, I would like to thank 
you, Mr. Chairman, for your leadership and support in getting 
Coast Guard Academy information posted on Congressional web 
sites.
    Ms. Carla Grantham was recently hired into a new position 
designed to raise visibility with Congressional offices and 
constituencies on opportunities within the Coast Guard. Ms. 
Grantham is ready to follow up on your actions, Mr. Chairman, 
to assist any office in posting Coast Guard Academy 
information. This expanded outreach will allow more Americans 
to learn of and consider the Coast Guard.
    Mr. Chairman, in September, you stated it was an imperative 
that the Coast Guard form a plan designed to implement specific 
diversity goals. We are aggressively working on an updated 
leadership and diversity management strategy to be completed 
this fiscal year.
    While we work this new strategic document, we continue 
taking aggressive steps on the action plan I described in 
September, a plan derived from our current strategy and the 
Commandant's diversity statement with input from our diversity 
advisory council and affinity groups. Within our plan, we have 
addressed actionable steps across leadership and 
accountability, outreach and recruiting, development and 
retention that create a sustainable foundation.
    To set the tone from the top, we produced a Commandant's 
diversity video. We have recently finished an outreach calendar 
and are evaluating software to help us track and measure our 
outreach efforts. Executives are more engaged in our outreach 
initiatives to historically black colleges and universities, 
Hispanic Association of Colleges and Universities and tribal 
colleges and universities.
    In partnership with the National Naval Officers 
Association, we established an ambassadors program for greater 
presence on minority-serving institution campuses. Both 
executives and field commanders will be active participants in 
affinity group conferences later this year, and we are 
exploring new partnerships such as Advancing Minority Interests 
in Engineering, known as AMIE, LATINA Style and the Society of 
Mexican American Engineers and Scientists.
    We remain focused on recruiting minorities and women for 
our enlisted workforce. Here, we have a sustainable methodology 
that is producing results with minorities comprising over one-
third of our annual recruits for each of the last five years 
while at the same time increasing quality across all the 
standards looked at by all five services.
    This year, we are ahead of last year for both minority and 
women recruits. Recruiting efforts for our college student 
precommissioning program were refocused on minority-serving 
institutions this year. While the selection board for this year 
has not yet met, we have a more robust applicant pool.
    The Academy continues to be successful in attracting women. 
We project that our trend of 25 to 30 percent women to continue 
for the Class of 2013.
    We have not yet found that same success with minorities. 
However, we have this year experienced an increase in our 
minority applicant pool, and we see potential in exploring 
applicants who start but do not continue in the application 
process.
    The Academy continues efforts to increase both visibility 
and access through increasing under-represented minorities in 
our Academy introduction mission program, providing programs 
for educators from under-represented school systems and 
starting on the Class of 2014 now, executing a supplemental 
cadet search targeting approximately 30,000 additional 
underrepresented minorities.
    For our civilian workforce, we adjusted hiring practices 
based on benchmarking Federal agencies successful in hiring 
Hispanics and partnered with maritime industry stakeholders for 
new recruiting venues.
    Mr. Chairman, we recognize the challenges we have and are 
taking actions to reinforce the building blocks we have in 
place and to establish those to build a strong foundation for 
sustainable programs. We have a plan, and we are executing that 
plan.
    Thank you for the opportunity to testify today. I welcome 
your questions.
    Mr. Cummings. I want to thank both of you for your 
testimony.
    I just want to start with you, Rear Admiral. While there 
are many specific questions I have about the reports I have 
read, I want to focus right now on some of the overarching 
issues pertaining to the equal employment and the civil rights 
issues and the civil rights services.
    In its fiscal year 2008 MD-715 self-assessment, the Coast 
Guard cited a number of essential element deficiencies, and I 
note that the term essential element deficiency refers to a 
lack of those features that the Equal Employment Opportunity 
Commission has said a model Equal Employment Opportunity 
program should have. Is that right? Are you familiar with the 
concept?
    Admiral Breckenridge. I am, sir.
    Mr. Cummings. Very well. Among the deficiencies cited were 
the following: The EEO Director does not have the authority and 
funding to ensure implementation of agency EEO action plans to 
improve EEO program efficiency and/or eliminate identified 
barriers to the realization of equality of opportunity. Would 
you comment on that, please?
    Where are we there?
    First of all, this was a self-assessment. So, I mean give 
me some comments on where we are on there.
    I guess what I am trying to do, so that you understand, is 
that I am trying to figure out what has been done, say, since 
September, since some of these reports were done. I want to 
figure out what kind of progress we have made, if any, because 
it is my philosophy that another group of Congressmen will be 
here maybe 10 years from now, sitting in these same seats, and 
if we are not careful nothing will have happened.
    So, rather than waste my time and waste the Congress' time, 
we need to try to figure out what is happening. And, if we are 
on a merry go round going nowhere fast, we need to figure out 
how to get off this merry go round so that we can achieve 
something. So give me your comments on that.
    Admiral Breckenridge. Mr. Chairman, we certainly don't want 
that outcome that 10 years from now we would still be on the 
merry go round and nothing would have changed.
    With respect to the action plan, Mr. Chairman----
    Mr. Cummings. I want you to comment on that particular one 
because I have a whole list of things I am going to ask you.
    The EEO Director does not have the authority and funding 
the implementation of agency EEO action plans to improve EEO 
program efficiency or eliminate identified barriers to the 
realization of equality of opportunity. That is deadly. I am 
just curious as to where we are on that.
    Admiral Breckenridge. Mr. Chairman, I would defer to Ms. 
Dickerson who is the head of the program to comment on whether 
she believes she has the authority and resources to carry out 
her responsibilities.
    Mr. Cummings. All right. Okay, Ms. Dickerson.
    Ms. Dickerson. Thank you, sir. I believe the letter is 
based on 2004 through 2006 self-assessment. At that time, Coast 
Guard was at 86 percent compliance with its self-assessment 
under the Management Directive 715.
    In the ensuring years, in 2007, that grew to 96 percent 
compliance, and then we raised our own goal with regard to 
complaint processing and set a standard for ourselves. Because 
of that, in 2008, we lost 2 percentage points. It was still a 
94 percent compliance rate.
    One of the things getting to the heart of your question, 
which I understand very well, sir, is after Admiral Allen saw 
the results of this year's MD-715 report he asked Admiral 
Breckenridge and me. Up until now at the staff level, there had 
been a cross-functional team representing a number of different 
divisions working on the actions arising from the MD-715.
    Now Admiral Breckenridge and I together have distilled a 
number of initiatives that are immediately actionable and that 
we can bring to the workforce, to commanding officers and get 
their participation. One of them, sir, is the Defense Equal 
Opportunity Climate Surveys and making sure that across the 
board we are complying with that mandate that everyone assess 
their climate and act on and take follow-on actions arising 
from climate surveys.
    The other ones that we have distilled have to do with 
leadership at the commanding officer level in terms of 
recruitment and setting that climate that really affords 
opportunity for every member of the workforce.
    Mr. Cummings. Let me ask you about the second issue. You 
may have similar comments with regard to this. It said: 
Sufficient personnel resources have not been allocated to the 
EEO program to ensure that the Agency's self-assessments and 
self-analyses prescribed by the EEO MD-715 are conducted 
annually and to maintain an effective complaint processing 
system.
    Is that what you were just talking about?
    Ms. Dickerson. In part, sir, and more directly to that 
point we now have directed more resources to that particular 
function.
    Mr. Cummings. Since when?
    Ms. Dickerson. This occurred recently. In this fiscal year, 
we have been redirecting resources to the civil rights program.
    Mr. Cummings. So you had made previous requests, and you 
hadn't gotten them. Is that correct or you got part of them or 
what?
    Ms. Dickerson. Oh, yes, we got them. We hadn't had an 
overall increase, but to the extent that I went to request 
resources I was given them.
    Now that we are reorganizing into a more centralized 
organization, what is clear is that we will need more people in 
the field, and so we will need more personnel resources. But 
for now, they don't within my office. We have received. I have 
requested and received the resources that we need to carry out 
the action items that are in the MD-715 report.
    Mr. Cummings. You mentioned, Ms. Dickerson, something about 
the 53 recommendations, that you were able to achieve 10.
    Ms. Dickerson. Yes, sir.
    Mr. Cummings. And you have eight that it sounds like you 
are about to resolve if I remember. I am not trying to put 
words in your mouth.
    Ms. Dickerson. Yes, sir.
    Mr. Cummings. Talk about those. Can you give us an idea 
what some of the 10 are that you have resolved and the 8 that 
are about to be resolved and the most glaring of those that are 
yet to be resolved?
    Ms. Dickerson. Yes, sir. The ones that are about to be 
resolved will take place. They had to do with structural 
challenges, for example, people who don't report to the Civil 
Rights Office.
    We didn't have visibility on things that were happening 
locally and complaints that were arising in the field. We 
weren't able to provide services or to get data calls answered. 
I believe, as you may have noted or you certainly saw in the 
report, there were inconsistent practices in the field because 
the EEO people reported to local commands, and so they tended 
to have practices and protocols that somewhat reflected the 
local command.
    So, instant with reorganization, we will be able to get 
everyone on the same page, and it will greatly assist us in 
communicating down to the field level and the local levels in 
terms of policies, practices and also to assure the training 
and performance evaluation of everyone in the EEO chain.
    Mr. Cummings. Now you also talked about, and then I am 
going to have Mr. LoBiondo, yield to him.
    You talked about six employees that you got. Tell me about 
that. What is that and what will these people doing, these six, 
and have they been hired?
    Are they on board? When are they going to be on board or 
whatever?
    Ms. Dickerson. Yes, sir. I just received the----
    Mr. Cummings. What is just?
    Ms. Dickerson. Within the last three weeks, within the last 
couple of weeks, I received the information that research had 
been done Coast Guard-wide to identify six civilian positions, 
and they would be redirected to the civil rights function--two 
in my office and four would be available for the field.
    Mr. Cummings. That is a total of six, is that right?
    Ms. Dickerson. Yes, sir.
    Mr. Cummings. Okay. But you had requested that before, had 
you not? Had you requested personnel before?
    Ms. Dickerson. Yes, sir.
    Mr. Cummings. What do you think brought about this action 
in the last two weeks?
    Ms. Dickerson. I believe that right after. From what I am 
told, sir, and as you indicated, it predated me, but what I am 
told is after the 2001 top to bottom review there was a plan.
    Mr. Cummings. What year was that?
    Ms. Dickerson. In 2001.
    Mr. Cummings. I just want to make sure we got the year 
straight.
    Ms. Dickerson. Yes.
    Mr. Cummings. So, go ahead. There was a plan back in 2001. 
Go ahead.
    Ms. Dickerson. Yes, sir, to add more full-time personnel to 
the field. Initially, there was personnel added. Then at some 
point, that plan to resource, to add those resources to the 
civil rights function wasn't carried out.
    I am not certain, sir, exactly why that was the case, but 
that plan was never fully executed. It began and was not ended.
    Mr. Cummings. Well, let me, just so that I will be clear. 
At what point did you come to the point where you knew you 
needed the six people? I guess that is what I am trying to get 
to.
    Ms. Dickerson. Yes, sir.
    Mr. Cummings. At what point was that?
    In other words, we have a 2001 plan. Some folk were added. 
I don't know the dates when they were added. I don't know the 
date when the folk were withdrawn. All I am asking you is at 
what point, to your knowledge, did the request for these 
additional people start?
    Ms. Dickerson. I continued the requests. I became aware of 
them certainly when I became Director, and I continued the 
requests.
    Mr. Cummings. Which was in?
    Ms. Dickerson. In 2006, sir.
    Mr. Cummings. Right. Okay.
    Ms. Dickerson. Yes, sir.
    Mr. Cummings. Were they requested prior to your getting 
here?
    Ms. Dickerson. Yes, sir.
    Mr. Cummings. You said you continued them?
    Ms. Dickerson. Yes, sir.
    Mr. Cummings. Okay. So we know that it has been at least 
two, three, four years possibly.
    Ms. Dickerson. Yes, sir.
    Mr. Cummings. If not longer.
    Ms. Dickerson. Yes, sir.
    Mr. Cummings. All right, Mr. LoBiondo.
    Mr. LoBiondo. Thank you, Mr. Chairman.
    I think for Ms. Dickerson, the report indicates that 
members of the Office of Civil Rights staff did not understand 
the vision, business goals and key success indicators of the 
office. Can you tell us what the Coast Guard defines as the 
vision, business goals and success indicators of the Office of 
Civil Rights?
    Ms. Dickerson. Yes, sir. Equal Employment Opportunity 
Commission, its mission is to eradicate discrimination and 
certainly in the private sector but in the Federal Government. 
Since EEOC can't be everywhere, Federal offices have their own 
EEO programs. So the mission of our office would be consistent 
with that, eliminating employment discrimination for the 
workforce and for job applicants.
    Mr. LoBiondo. You are saying that the Coast Guard Office of 
Civil Rights is basically taking from the EEOC what the report 
claimed was the vision, business goals and key success 
indicators, that the Coast Guard didn't have that?
    I mean I am a little bit confused. So the Coast Guard 
didn't have their own policy, that the report indicated that 
members of the Office of Civil Rights staff of the Coast Guard 
did not understand. So they didn't understand the EEOC 
requirements or the Coast Guard had its own requirements that 
they did not understand?
    Ms. Dickerson. That particular finding, sir, what I get 
from that is that to the extent that we were beginning to 
associate our work with metrics, I found when I got there that 
there was an inability to quantify how many of a particular 
activity we had carried out or the office had carried out or 
how much of a service but not necessarily what the impact of 
that service was. That was alluded to in the report.
    In other words, when we conducted, for example, site 
visits, there was data to indicate how many visits we might 
have conducted but not necessarily what the outcome of that was 
and then to stand back from a year of conducting site visits to 
indicate what that was telling us in a comprehensive sense and 
whether or not those efforts were successful in reaching EEO 
and civil rights outcomes in terms of a place where there is 
equality for all employees and applicants.
    Mr. LoBiondo. I am a little bit fuzzy, and I am not trying 
to give you a hard time. As we look at this, and I don't know, 
Mr. Chairman, maybe you_I think what I am trying to understand 
here is as we get to particulars, if we don't have the broad 
outline and when the report indicated that members of the Coast 
Guard Office of Civil Rights did not understand the vision, 
maybe I am just not getting what you are saying of how this was 
interpreted because my next question was going to be how does 
the Coast Guard Office of Civil Rights communicate that vision 
and those goals to the office employees?
    How do you take what that is supposed to be so that people 
understand and then can implement it?
    Ms. Dickerson. Yes, sir. Our mission, goals and vision are 
communicated in all of our publications. It would be certainly 
part of our web site. Then as we undertake activities, we 
verify and validate that against that mission to make sure that 
we are pursuing activities that are connected to it.
    Our individual vision and mission has to do with making 
sure that the workforce is at all times ready. So if we bring 
equality to the Coast Guard workforce, then our force, it will 
be ready for mission execution.
    Mr. LoBiondo. I understand that part. I am just trying to 
get in my head how you communicate through your office to the 
people who need to understand this. Do you feel that just the 
web site, I mean do they have any requirement to look at this?
    If it is not individually communicated, I am wondering how 
you can be sure that everyone who needs to understand what the 
vision is gets what the vision is.
    Ms. Dickerson. Yes, sir. One thing I have recently begun is 
all hands meetings weekly where we take a topic and discuss 
exactly its application to our mission and vision, whether it 
is our publications or how we promote our services. We spend an 
hour a week now as an office really to articulate that and to 
secure alignment with our services and our goals and make sure 
that that expression is throughout all of our materials and in 
how we carry ourselves.
    I think part of what the report was getting at, sir, 
though, was in the field, that to the extent we attempted to 
articulate the vision and mission of people in the field, there 
wasn't very much opportunity to align ourselves.
    The local field civil rights service providers report to 
local commanders, and they had their own mission, vision, et 
cetera. And so, to the extent that I was ever able to go to the 
field and get input from them about what we were doing at 
headquarters, it just was not a strong line or a strong avenue 
that enabled that to occur.
    Mr. LoBiondo. If I might, just another minute or so. So 
what I am understanding, I think, of what you are saying is 
that up until sometime recently or until now the vision is left 
to interpretation in the field?
    Ms. Dickerson. No, sir. In my office of our 22 personnel, 
we do have a vision and a mission for civil rights.
    Mr. LoBiondo. Okay.
    Admiral Breckenridge. Sir, if I might offer a comment from 
an individual who was out in the field, as a former district 
commander, I think what Ms. Dickerson is describing, in 
fairness, is somewhat accurate. I think our field commanders 
and, as one, I clearly understood discriminatory practices and 
the vehicles to correct that.
    I think it is the total program, and Mr. Chairman raised 
several of the issues of what does the 715 plan really 
represent and how do you utilize that as a tool. So it looks at 
the EEO reviews that are done to analyze climate at units. How 
do you use all of that information as a total systems approach 
to the issue that I think that is the issue.
    It is not what EEO represents but rather that I think Mr. 
Chairman in his comments made a comment about some of our 
definitions being narrow. I would say that perhaps our 
understanding, our implementation in this arena was somewhat 
narrow.
    Ms. Dickerson had measurements there that will allow us to 
open the program up. We are going to put things in place 
utilizing the 715 plan to understand the full breadth of tools 
and responsibilities that we have and make sure that we carry 
them out.
    Mr. LoBiondo. Mr. Chairman, just if I could, in explanation 
to you, I am thinking if we are specifically talking about the 
report that was issued, and my only goal here was to try to get 
a feeling for at the broadest level how the Coast Guard 
understands and interprets this. So, thank you.
    Mr. Cummings. Before we get to the Chairman of the Full 
Committee, let me just piggyback on something that the Ranking 
Member talked about. Let me make sure I understand here. There 
is something called collateral personnel. Is that right?
    Ms. Dickerson. Yes, sir.
    Mr. Cummings. In the area of the Office of Civil Rights, 
tell me how they operate? Who are they? Who are these folks?
    Ms. Dickerson. Yes, sir. We have collateral duty civil 
rights officers as one.
    Mr. Cummings. What do they do?
    Ms. Dickerson. They are people who there is a requirement 
that every command that has more than 50, every unit with more 
than 50 employees would have one of these individuals. Their 
purpose is to be an intake point for people when they believe 
that a discriminatory act has occurred.
    So, for example, they would either direct that person to an 
EEO counselor or they would direct that person to the military 
command. That would be the complete function of that particular 
collateral duty civil rights officer.
    But, in addition, we have do have civilian and a few 
military collateral duty civil rights counselors. Their mission 
is to counsel complaints, well, matters once they have been 
identified. There is a mandatory counseling period of 30 days 
that EEOC requires, and so the collateral duty civil rights 
counselors would be the ones who would offer that service.
    Mr. Cummings. Is it a probability that if someone had a 
complaint, that they would come in contact with one of these 
collateral duty folks?
    Ms. Dickerson. Yes, high probability.
    Mr. Cummings. Is it a high probability?
    Ms. Dickerson. Yes.
    Mr. Cummings. When the Booz Allen report talks about staff 
members of the Office of Civil Rights, are they talking about 
those folks too? Do you know?
    Ms. Dickerson. The staff members in my office are not 
collateral duty. They are all full-time. The collateral duty 
personnel are in the field.
    Mr. Cummings. So, in other words, what I am asking you is 
that when the report says that staff members in the Office of 
Civil Rights did not understand the vision, business goals and 
key success indicators of OCR, you are just talking about those 
22 people? You are not talking about these collateral duty 
folks?
    Ms. Dickerson. That is how I took it, yes, sir.
    Mr. Cummings. Okay. So, when the report says that the 
people in your office, are all of them basically in the same 
office?
    Ms. Dickerson. Yes, sir.
    Mr. Cummings. That they do not understand the vision, 
business goals and key success indicators, basically, what you 
are saying is you just agree with that? Is that what you are 
saying?
    I am going to the report. I am sure you have read it.
    Ms. Dickerson. Of course.
    Mr. Cummings. It says the Booz Allen Hamilton report 
indicates that staff members in the OCR, and I just want to 
clarify what the Ranking Member is talking about, so I will be 
clear. I want to be clear too. That they did not understand the 
vision, business goals and key success indicators of OCR, is 
that accurate?
    Do you think that is accurate?
    Ms. Dickerson. To some degree, yes.
    Mr. Cummings. And why is that? Why do you think that would 
be?
    In other words, you were the head of the office. Is that 
right?
    Ms. Dickerson. Yes, sir.
    Mr. Cummings. It was your duty to create a vision and 
working with others to create the vision and make sure 
everybody was working from the same page. Is that right?
    Ms. Dickerson. Yes, sir.
    Mr. Cummings. Then why would that be a problem?
    Ms. Dickerson. I utilized opportunities to communicate it. 
I believe that there were legacy constructs and legacy concepts 
about things, how things had been done previously.
    Mr. Cummings. So, in other words, you are saying there were 
some personnel.
    Let me make sure I understand what you are saying. You are 
saying there were some personnel that had been there for years?
    Ms. Dickerson. Yes, sir.
    Mr. Cummings. Hello?
    Ms. Dickerson. Yes.
    Mr. Cummings. Okay. And so, you don't necessarily feel that 
everybody was on board?
    Ms. Dickerson. Yes.
    Mr. Cummings. All right.
    I yield to the Chairman of the Full Committee, Mr. 
Oberstar.
    Mr. Oberstar. Well, thank you very much, Mr. Cummings and 
Mr. LoBiondo for being here and for your ever vigilant 
participation in Coast Guard matters.
    Chairman Cummings, you have really taken charge of the 
Coast Guard Subcommittee Chairmanship, and you have taken, how 
should I say it, an ownership interest in this subject matter. 
I am very proud of your having done that.
    This hearing did not just come parachuting out of the sky, 
and we woke up one morning and said we ought to do this. This 
is an issue that we have been concerned with for quite some 
time on the Subcommittee.
    But it is not just the Coast Guard. It is diversity in the 
building and construction trades. It is diversity among the 
contractors for our surface transportation or transit programs.
    We have a provision in the Federal Aid Highway Program, 
which I supported, I can't quite say that I initiated it, but I 
was Chief of Staff on the Committee when it was initiated and 
had a hand in writing that legislation, to have a 10 percent 
set-aside for minority business enterprises. We maintained that 
language even when it was under assault some years ago, and we 
moved to strengthen it.
    We included in the stimulus initiative funding in the 
surface transportation, principally the highway program, $20 
million for recruitment, training and retention of minority 
workers in the building trades--carpenters, plumbers, 
pipefitters, steamfitters, all the rest of those, the operating 
engineers--and funding for minority transportation enterprises 
to have access to some $20 million for surety bonds, for 
performance bonds, for construction bonds in a program 
comparable to that which the State of Maryland has established 
for many years and which was brought to our attention by Mr. 
Cummings
    Chairman Cummings said, well, we are having a lot of 
problems with small enterprises. They have reported to our 
Committee that they just can't get the bonding they need to 
perform properly. So we provided that money under his 
inspiration.
    We had a meeting yesterday with the building and 
construction trades, which I chaired, with the presidents of 
all the unions, six of them. We never had them gathered in one 
place before with members of the Tri-Caucus, as we call it: the 
African American and Black Caucus, the Hispanic Caucus and the 
Asian/Pacific Islander Caucus.
    I pointed out that in the building trades that only 4 
percent of the trades people are African Americans, 24 percent 
Hispanic, 8 percent women, and in other trades it is a smaller 
percentage of women than African Americans.
    So we have a problem here. We have a problem. You have a 
problem. Building trades have a problem.
    You are not recruiting. You are not retaining. You are not 
outreaching.
    We want this program, we expect this $27 billion to benefit 
all Americans. So, now tell us what you are going to do and how 
you are going to correct that problem.
    Well, the presidents of the trades said it is actually in 
the union side of the business, much higher.
    How much higher?
    Well, they didn't have that number.
    Trade by trade by trade, tell me what it is.
    Well, just off the top of their heads, a few of them, well, 
we are in the range of 20 percent.
    That is not good enough. That is not good enough.
    We have Congressman Rush from Chicago who says, I walk down 
the street in my district and people come up and say: You have 
all this construction money going out the door. I can't get a 
job.
    Why can't you get a job?
    Because I can't get into the union hall.
    What do you mean you can't get into the union hall?
    We had all the brothers sitting here, all the national 
presidents of the various trades: You are going to have a 
program. You are going to start recruiting. You are going to 
outreach. You are going to recruit. You are going to do this, 
and you are going to start today. That was yesterday.
    So that is the origin and the genesis of the hearing here. 
The Coast Guard needs to be more inclusive.
    When we won back the majority, the Committee took a closer 
look at these issues, and we found this problem as I talked 
about in the building and construction trades. We found them in 
the management side of our highway and transit program. Now we 
are finding it in the maritime trades, the Coast Guard.
    You have to raise your game a little, more than little. 
That in a class of 300 you would have 9 African Americans is 
appalling.
    We are long past Brown v. Board of Education. We are a long 
ways from that.
    I have asked for numbers. In the 2008 enrollment class for 
the Coast Guard: 177 White, 7 African American, 9 Hispanic, 13 
Asian/Pacific Islander.
    Over many, many years I have gone to the Coast Guard 
headquarters for meetings, and the mess served and the 
Secretary of Transportation is served by largely Filipinos 
recruited from the Coast Guard. You have quite a few of those 
in the enlisted rank, but you don't have very many in the 
officer rank.
    For the Class of 2009: 178 White, 9 African American, 14 
Hispanic, 2 Native American or Alaskan, 5 Asian/Pacific 
Islander.
    In 2010: 174 White, 8 African American, 10 Hispanic, 2 
Alaskan/Native American, zero Asian/Pacific Islander.
    And for 2011: 192 White, 8 African American, 11 Hispanic, 3 
Native American/Alaskan, 1 Asian/Pacific Islander.
    Now the U.S. Military Academy is doing a little bit better. 
I am not going to recite their numbers.
    This is about the Coast Guard. I want to know what this 
great organization that goes back to the foundations of our 
Nation, the first Congress in a new republic in 1789. The first 
Committee of the first Congress was the Subcommittee on Rivers 
and Harbors of which this Committee is a descendant. In fact, I 
started my service in Congress on the staff of the Subcommittee 
on Rivers and Harbors as Clerk.
    But the first act of the first Congress in 1789 was to 
establish and maintain a lighthouse at Hampton Roads. The 
second act of the first Congress was to establish and maintain 
a lighthouse at Cape Henry in the entrance to the Chesapeake 
Bay. And the third act of the first Congress by the Committee 
on Rivers and Harbors was to establish the Revenue Cutter 
Service to exact duties on inbound cargoes and pay the debts of 
the Revolutionary War. That became the Coast Guard.
    You go back to the origins of our Nation and span all of 
this history of the new Nation, the Great Republic, but you 
haven't caught up. What are you going to do to catch up and get 
ahead?
    Admiral Breckenridge. Thank you, Mr. Chairman.
    I wish I had a silver bullet to say we had the answer, and 
I had it fixed today. I honestly can't tell you that.
    What I can tell you is that we are being successful with 
women and, in fact, the most successful of the service 
academies, and we want to make sure that we don't backtrack on 
any of that.
    As we look at minorities, I think our numbers do show that 
we have not been successful, and we don't dispute that.
    I think we are seeing that the outreach efforts that we 
have, that we are seeing slightly larger pools coming in. And, 
quite frankly, looking at those pools of how many actually 
start into the process and complete the application process, I 
think there is a huge gap in those numbers that we should be 
exploring.
    I believe it is 165 started into the process, African 
Americans, of which 36 completed the process, of which we have 
accepted into the upcoming class of 2013. If I look at 
Hispanics, it was somewhere on the order of 255 of which 111 
completed the process. So I think that as we look at those 
pools there are additional prospects in there that we need to 
very actively go after.
    Some who started in, who indicated interest, we have looked 
at some of them. Have we fully looked across the potential? We 
have not.
    I think as we also look at the trends that are going on in 
colleges and the increasing trend of individuals leaving high 
school to go to two-year colleges. We have a high number of a 
requirement for science, technology, engineering and mathematic 
degrees coming out of our academy, but those in most colleges 
are five-year degrees. So, individuals who start in a two-year 
school potentially are looking to go on to a four-year school, 
and I think that there are partnerships that we can form there.
    We have gone to affinity groups, professional groups to 
help us take a look at what we are doing.
    We have done a scholars program as a one-year feeder. We 
have really focused that effort in where we are marketing.
    We have done extensive outreach. This year, we will be 
bringing in more educators from underrepresented school 
systems, so that we raise the visibility of the opportunities 
that we have.
    Then also, as we look at Congress, we know that there are 
many applicants who come from the other academies. We would 
like the visibility of the opportunities that exist at the 
Coast Guard so they would consider it. And we also think that 
there is some potential that there are individuals in those 
pools who would be interested in the Coast Guard Academy.
    So we are looking across all of those venues.
    I wish I could say overnight, sir. It took us a long time 
to get where we are, Mr. Chairman, with women. As we look at 
our enlisted force again, the last five years, over a third, 
sometimes 40 percent are minorities. Yet, as we look at the 
growth of our workforce, we have only increased 6 percent with 
each of those annual changes.
    So we are open to suggestions, and we certainly want to 
afford every American the opportunity to consider the Coast 
Guard Academy.
    Mr. Oberstar. Well, that is a good attitude and a good 
spirit, and I appreciate your frankness and admission that 
things aren't up where they should be and you will work to 
change that.
    I have noticed--and perhaps my colleagues--that in the 
applications for the service academies the numbers have fallen 
off dramatically, especially over the last eight years with the 
Iraq War and the revulsion against our presence in Iraq. I used 
to have 200 applicants for 5 positions, one at each of the 
academies including Merchant Marine/Coast Guard, and that is 
down to about 9 or 10.
    I have had academy information day at the largest city in 
my district, Duluth, which is about the size of subdivision of 
Baltimore, but it is an 85,000 population, and we had 15 people 
from the academies, wonderful presentations, marvelous. We had 
nine people, nine students. We had more presenters than 
students.
    Now the Coast Guard is in a different position than the 
service academies. It is not seen so much as a military 
institution as the preeminent safety service organization. I 
call the Weather Channel the Coast Guard Channel because they 
constantly have these dramatic rescue efforts of the Coast 
Guard in so many of our weather-related tragedies, weather-
initiated tragedies.
    I would take that footage from the Weather Channel and go 
to high schools around the Country and show kids: Look, this is 
what you can do. You would be saving lives. You may be putting 
yourself at some risk but not gunfire, but saving lives and 
saving property and even saving pets, which the Coast Guard has 
done.
    I have said for years we get more value out of that blue 
uniform than we do out of any other investment we make in the 
government, but we want you to spread that message. Now if the 
building trades are going to do an outreach program, then 
surely the Coast Guard can do that.
    My oldest daughter was at Marquette University, and 
Marquette asked her to recruit, to take a semester off and 
travel the East Coast and go to all the high schools and make a 
pitch for Marquette. That was a pretty big deal for Marquette. 
She is very attractive, very smart, bright red hair, very 
personable. She could talk the pants off anybody and do it in 
French as well as English, and she did a great job for them.
    But are you doing that? Is the Coast Guard? Are you 
targeting maritime communities? Are you going into the inner 
cities, going into places like inner city Chicago and Los 
Angeles and elsewhere in America?
    And not just the coasts because in the inland cities there 
are young people who dream of a career in the maritime.
    Admiral Breckenridge. Yes, Mr. Chairman. In fact, my 
husband is from Nebraska, and he joined the Coast Guard at one 
point.
    Mr. Oberstar. There you go.
    Admiral Breckenridge. So, absolutely, yes, sir. We do have 
an outreach program, Mr. Chairman, that goes across each one of 
our workforces.
    As we look at our enlisted workforce, where we focus that 
effort along with the other services, we actually utilize a 
demographic database that looks at high schools, that looks at 
the scores on a test that they take, that looks at skill sets 
and then also factors in a propensity to serve. That started 
several years ago and became the baseline for the program that 
we use today.
    We have also taken success stories in the Coast Guard from 
our recruiting command, filming individuals within the Coast 
Guard. It is not only on all of our web sites, but we dropped 
it on ITunes, and it is also out on YouTube so that any young 
person who is going out and searching across ITunes, which is a 
very common feature for them today, can come across the Coast 
Guard.
    We have affiliations with a number of organizations. The 
National Naval Officers Association, which is helping us to 
reach out to colleges, those are individuals in the sea 
services and reach out to colleges. With them, we have 
established an ambassadors program.
    The Academy has an extensive outreach program. They have a 
partner program that brings in the Coast Guard auxiliary or 
volunteers as well as parents and alumni and those on active 
duty and within our reserve force and use them as force 
multipliers as well as focusing their efforts.
    Mr. Oberstar. That is good, and I think that is a very 
commendable initiative. There is more I think that members of 
the Tri-Caucus could offer, following up on our meeting 
yesterday, as I said, with the building trades.
    Do you do a follow-up?
    I am just looking at the number of completed applications, 
the offered appointments and sworn in the Coast Guard Class of 
2009. Well, there are 55 African Americans who completed 
applications, 5 who were sworn in. Have you talked to them? Do 
you follow up with those who didn't and find out why they 
didn't?
    Admiral Breckenridge. To say that we have 100 percent 
certain to everyone of those individuals, we do not, sir.
    Mr. Oberstar. You do some?
    Admiral Breckenridge. Yes, sir.
    Mr. Oberstar. Can you do more? Do you learn something from 
those follow-ups?
    Admiral Breckenridge. Mr. Chairman, we have to do more 
there. I mean those are individuals who started in. We do find 
that as they start into the process, some of them pursue other 
academic institutions. There are those who do come to the Coast 
Guard are also competitive to other academic institutions where 
they may also earn scholarships.
    Mr. Oberstar. Well, that is true, and we see that in the 
other services academies. If you are good enough to get into 
the Coast Guard or West Point or the Naval Academy, the Air 
Force Academy, you probably can get a scholarship to another 
university, maybe an Ivy League or one of those, and I have 
seen that drop off myself in my district.
    The other thing is retention. I talk about retention in the 
building trades. Here are from lieutenant commander to 
commander, 67 African American, but by the time you get to the 
commander level there is only 17. Why is that?
    What are you doing? Why are they dropping out? Why are they 
leaving? Why are they not being promoted?
    Admiral Breckenridge. Actually, sir, the flow across our 
grades of African Americans, and I would say minorities in 
general, minority retention rate is actually higher for our 
officers than it is for the office corps in general.
    Mr. Oberstar. Well, this is as of August, 2008, and you 
start off with at the ensign level, 29, lieutenant junior 
grade, 54, lieutenant, 129. Then you get to the lieutenant 
commanders, down to 67 and then it is down to 17. By the time 
you get to admiral, it is zero.
    Admiral Breckenridge. Yes, sir. I think there are a number 
of variables that play into that. We have an up or out system. 
In each grade, there is a smaller percentage of individuals 
that remain. For instance, there is 6 percent, roughly 6 
percent by law that are in the grade of captain, 12 percent 
that are in the grade of commander as a service structure. So 
it is a pyramid structure.
    As you look at each grade, you look at those coming up, and 
not everyone is going to be successful going up through the 
system, number one.
    Number two, I think--well, not I think. Clearly, there are 
individuals who choose to leave the organization. Some of that 
comes from the fact that across our Service we do have a number 
of individuals in our officer corps who come from the enlisted 
ranks. We do have upwardly mobile opportunities. And, they 
become retirement eligible more junior in their careers.
    So we need to look at how we are attracting across all 
opportunities for all individuals and look at how we are 
pulling. What are the accession sources through which we are 
pulling people into the officer corps to make sure as they move 
through the grades we are using venues that will create 
populations that do make it through all the way, so we have a 
robust pool at the upper end of our organizational structure.
    Mr. Oberstar. We are not asking to establish a quota or 
proposing a quota system, but when it drops off from 67 to 17 
to 4 and a White or not Hispanic or Latino goes from 1,100 to 
772 to 353 at the captain rank--we could put this chart up on 
the board as well, but I will just cite those numbers--that is 
about half, and you have a 75 percent drop-off for African 
American, something is happening.
    Something is not working to encourage them to stay on. Is 
there a glass ceiling that they reach at a certain point?
    Admiral Breckenridge. I think several things I will offer, 
Mr. Chairman. First of all, we do look at promotion board 
results. We do not have the statistics in front of the board 
with respect to gender or minority status.
    After the board is finished we do a scrub on what the 
results of the board are. In the case of minorities and women 
in particular, we take a hard look at what happened in those 
boards, particularly where we see anomalies.
    We do the same thing when we look at occupational 
specialty. If there are individuals in a particular career 
field, that over several years we seem to have a different 
percentage selected than other career fields, we go in to do a 
hot wash to understand what the root causes are and if there 
are barriers or if there are things happening in our 
organization.
    With respect to African Americans and other minorities, we 
have had two of those that I can remember in recent history. In 
each one of those hot washes that we looked at, we could not 
identify any trend and the system appeared to be upheld. When I 
say that, we did find specific things in the record for a 
number of the individuals that explained the nonselection 
within our process.
    Having said that, I will tell you, Mr. Chairman, that I do 
think at the mid-grade level, and I describe that as our E5s, 
E6s and our 03s and particularly going to 04, that is a very 
critical time. That is when they are making a decision of 
whether they are going to become a careerist within our 
organization. I think that there are some vulnerabilities 
there, that we need to ensure that we are doing more to guide 
individuals through that portion of their career.
    So, right now, part of our action plan that we have is that 
we are extending individual development plans to those grades, 
and I have 38 units that are currently participating in a pilot 
project for how we would roll that out across the organization 
in a way that is sustainable at units.
    The intent of this is to create the one on one counseling 
and helping individuals do goal planning and have commands 
involved in that goal planning to make sure that it is 
achievable.
    Mr. Oberstar. All right. Well, that is good.
    Take a look at that chart up there. You will see what we 
are talking about.
    Do you have a goal over a period of time for flag officers? 
We asked Navy for what they are doing. The Chief of Naval 
Operations established a 30-year goal of having 38 percent flag 
officers be minority. The Coast Guard, have you discussed 
having a goal?
    Admiral Breckenridge. We do not have a specific 
representational goal within our flag corps.
    Mr. Oberstar. I want you to discuss that with the Admiral 
and with the Commandant and talk about this. I think it is 
important to have that. Start that conversation.
    I won't set a goal for you, but I would just say if you did 
as well as our Committee we wouldn't behaving this 
conversation. We have six Subcommittees. Four are chaired by 
African Americans.
    Admiral Breckenridge. I understand, Mr. Chairman. I would 
offer that----
    Mr. Oberstar. You are going to start working on it is what 
you are going to say.
    Admiral Breckenridge. I think we already have started 
working on it.
    Mr. Oberstar. Okay.
    Admiral Breckenridge. Over the last five years, there have 
been 36 flags selected of which 3 have been minorities and 2 
additional women. So, right now, of our 41 flag officers, we 
have 6 women and 3 minorities that are represented which is 
very different than just 2003 when I joined the flag corps.
    And, our SES corps which is our civilian component of our 
executive corps, over the last few years, we have a total of 14 
of which we currently have 13 filled. We have had a turnover of 
11 of those positions. Seven of them have been filled external 
to the organization, four of which have been filled by women, 
two of which are minority, and we have had one minority male 
hired. So I think we are making definition.
    The other thing I think is important, sir, that as leaders 
in the organization it is what we demonstrate by our behavior. 
If you look at the Commandant's front office and those 
individuals that work directly for him in those development 
opportunities at the 05, 06 and the aide level which is 04 for 
him, 03 or 02 for most of the rest of us, they are all women or 
minorities.
    For my own staff, when I looked at going back to the field 
this summer, I had three selections to make. Two of them are 
minorities.
    As we look at our 02, 03 aides today, 26 positions, over 
half of them are minorities and women.
    So I think senior leadership has taken this on as an 
initiative and is looking at opportunities to look at that 
bright talent and to make sure that we do recognize that we 
pull it up and provide full opportunity.
    Lastly, I think the thing that we are not doing today that 
may be a barrier for us is as we look at our workforce we have 
very bright, talented individuals. If I look at the enlisteds 
that qualify for many occupational specialties and our officer 
corps, every occupational specialty is open to every single 
individual in our officer corps.
    But we see collections, smaller collections and 
concentrations, and those patterns really haven't changed over 
time. Our growth recently in the enlisted corps has been in 
ratings where we do not see minorities and women migrating to.
    So I think we need to look at ensuring that young 
individuals who are joining our organization fully recognize 
the opportunities, that they are counseled on specifically what 
they qualify for, what opportunities are there, and then we 
ensure that they make a very well-informed decision because 
most of them qualify on the enlisted side for a multitude of 
ratings.
    Mr. Oberstar. You have shown a range of sensitivity and of 
interest and of willingness to do things. You also need a 
deeper cultural understanding, and this is the beginning of the 
conversation.
    And by cultural understanding, I mean in my Congressional 
district there are six of the eight bands of the Minnesota 
Chippewa Tribe. The Anishinaabe People are very reticent 
people. They don't speak much in their own circles. When they 
do, they have something significant to say. But they are also 
reticent in the non-Indian community, even more so.
    It makes all the difference having an Ojibwe, Chippewa, 
Anishinaabe female doctor on the reservation. The young women 
come and are treated, and they open up, and they talk because 
they have someone who understand them, whom they feel 
comfortable with. They are also accustomed not to speaking up, 
not to saying, not to stepping forth.
    And I think you find that also in the African American 
community, that because for so long they have had the doors 
closed, that they are uncertain about speaking to open them.
    You need to open that door. Thank you.
    Thank you, Mr. Chairman.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Ms. Richardson.
    Ms. Richardson. Thank you, Mr. Chairman.
    I am going to make a point building upon what our Chairman 
has just shared with us over a few minutes, and then I have one 
question for Ms. Dickerson.
    Rear Admiral, I would recommend that you consider talking 
to some police organizations, some fire organizations who have 
had similar difficulties in increasing their numbers and have 
spent much time developing strategies and plans. For example, 
in the fire department, you know they have pre-class trainings 
to help people to come up to speed prior to them applying to 
become a firefighter, and it has increased significantly the 
turnout.
    I would say to you that as an African American female, it 
is public record and by fact that the greatest beneficiaries of 
the Civil Rights Movement were not African Americans. They were 
white women who benefitted most greatly from civil rights.
    So it is not unusual for me to hear to hear today you say, 
oh, we are doing much better with women. Well, that doesn't 
change the fact, though, that we have other objectives that we 
must achieve as well.
    And so, like I can tell you from the police side of it, 
things like background checks, credit checks, things like that 
that maybe young people haven't heard as much about in 
different communities, of the importance of those items that 
impacts the later on positions that they will have are crucial 
and need to be understood in working with all communities.
    Finally, I would also say to you I represent a community 
where we may only have two pools out of 655,000 people, two 
pools for children in underserved communities. So kids who know 
about the Army, as our Chairman said, kids who know about the 
Air Force and planes and Marines. But if kids have never been 
on boat themselves or a ship themselves, it is kind of 
difficult to make that connection of why they are going to 
consider the Coast Guard and what skills they need to do.
    You talked about our alumni. Well, I hate to tell you, but 
a lot of kids in my district don't have parents or relatives 
who are alumni of the Coast Guard. So you really have to look 
at it from a completely different perspective.
    I would be more than happy to come and support in that 
effort, and I am sure that other members of the Tri-Caucus 
would be more than willing to come and volunteer and assist. 
But I would recommend that you work with some police agencies, 
fire agencies who have had similar situations and who have had 
to look at other creative ways to recruit, so that we can get 
at some of these numbers.
    But understand not all kids are around water. Not all kids 
are seeing water. Not all kids are going on ships, and not all 
kids are understanding even physical attributes, things that 
they need to excel in, in order to succeed. So that would be my 
first comment.
    Admiral Breckenridge. Thank you very much. I think they are 
some great ideas. I, personally, have talked to police 
departments, and in fact had a very close association with 
police departments in California while I was stationed there.
    Ms. Richardson. Which ones were those?
    Admiral Breckenridge. Up in the Bay Area.
    Ms. Richardson. Where?
    Admiral Breckenridge. Alameda, San Francisco and San Jose 
in particular.
    Ms. Richardson. Okay. With all due respect, I recommend you 
look at the diversity of those communities, and you will find 
that the plans are different, and it gets at the core of what 
we are talking about.
    Admiral Breckenridge. I welcome that feedback, and I will 
be happy to go back and look at that. I would be very happy to 
talk to you and get some additional ideas. I said we are open 
to ideas.
    If I implied that you have to be around water to understand 
it, I do very much understand your point that it is difficult 
for some, the way we advertise and what we are all about, to 
maybe make the connection and that you need a different 
approach there. What we have done in advertising and the way we 
put the word out, if it isn't connecting, we certainly would 
appreciate that feedback on some other things that we can do.
    When I talked about alumni, I did not mean to imply that 
alumni only go to their own children. We use them in the 
communities they are in to reach into the school systems and 
through civic groups and other associations. Having said that, 
with the feedback, it is likely that they may not be going to 
the right places.
    Ms. Richardson. Right. It is also with alumni, that you 
relate to who you know. So they might be going, but if the kids 
that they are going to don't relate to them or don't know them 
or haven't interacted with them at all, the likelihood of the 
connection is not as high.
    To give you an example, my brother-in-law went to 
Annapolis, an African American, and when he went, there was 
still the stigma in the 1970s that African Americans don't swim 
as well.
    There are issues, and all we can do is to work to address 
them and to improve where we are, and I am more than happy to 
support you in that effort. I would like to help.
    Admiral Breckenridge. Thank you very much.
    Ms. Richardson. And my time has expired. So Ms. Dickerson, 
you got off easy.
    Thank you.
    Mr. Cummings. Thank you.
    Admiral, I was listening to your testimony and your answer 
to the Chairman's question, and I just have a few things I want 
to ask you about. How long have you been in the position you 
are in?
    Admiral Breckenridge. Since last June.
    Mr. Cummings. Since last June. You read the report, right, 
this Booz Allen report?
    Admiral Breckenridge. I have, Mr. Chairman.
    Mr. Cummings. You have?
    Admiral Breckenridge. I have, sir.
    Mr. Cummings. Is there anything in the report you disagree 
with? Anything? The findings?
    Admiral Breckenridge. I can't say. There are portions of 
it, Mr. Chairman, that I can't say that I agree or disagree 
with it because I have not been in Ms. Dickerson's position 
with responsibility to run the program.
    From looking at our Service and looking at the structure 
that we have and some of the feedback that we got, I do agree 
with those pieces, Mr. Chairman. I think Ms. Dickerson has an 
action plan now to address those issues, and there is 
commitment at the senior end to see through on that action 
plan, Mr. Chairman.
    Mr. Cummings. Now she mentioned the authority for six 
positions, and I want to make sure we are clear. When we say 
authority, does that mean those positions are a done deal? Does 
that mean that they are going to be live people in the 
positions or does that mean that we have this wonderful 
umbrella that says authority, but there may not be anything 
behind it?
    See, I guess what I am getting to is I want to make sure. 
My frustration comes with the fact that this has been 10 years, 
and a lot can happen in 10 years or not happen. The things that 
don't happen, particularly in this area, is literally taking 
opportunities away from a lot of people.
    So the question becomes I want to know exactly what has 
changed. I hear there is this thing about six people. I know 
that a request had been made before for additional personnel, 
and it has not happened. I know that it was just two weeks ago, 
according to Ms. Dickerson, that these six people were suddenly 
approved or authorized.
    I know that we had a hearing today. As I have said many 
times in these hearings, I conduct my hearings a little 
different than a lot of Chairmen because I want results. My 
life is too short. No, really. I would rather be studying 
something or writing something or whatever, writing in my 
office than go through this if we are not going to have 
results.
    I am trying to get the rubber to meet the road, but I want 
to make sure there is a road when the rubber is supposed to 
meet it.
    So the question becomes do we have six new people, or don't 
we, who are going to get a paycheck and get all the benefits 
that come with employees? And are these full-time people? Are 
they part-time people? When did they begin? When will they 
begin?
    Let me finish. What are their titles, because I want to 
know about them? I want to see them at some point and say, hey, 
welcome, and I don't want to be talking to a non-existing 
authority.
    So the question, is do we have the personnel? I can't hear 
you.
    Ms. Dickerson. Yes, sir, we do.
    Mr. Cummings. We have them.
    Ms. Dickerson. Yes. I sought the same clarification that 
you are referencing, and I am assured that I can begin 
recruiting for those personnel. I have already spoken with 
people in the field in terms of deciding the best positioning 
of the ones who will be geographically located in the field 
area, and the two in my office I have already begun the effort 
of starting to program those positions.
    Mr. Cummings. When do you expect them to be hired?
    Ms. Dickerson. Soon.
    Mr. Cummings. You tell me, Ms. Dickerson.
    Ms. Dickerson. Yes, sir. I would say by May, hopefully, is 
what I hope.
    Mr. Cummings. Give me a date.
    Ms. Dickerson. May 31st.
    Mr. Cummings. May 31st. I tell you what, I will give you a 
bonus two weeks. June 15th, we are calling you back in here. I 
would like to meet those personnel.
    Ms. Dickerson. Yes, sir.
    Mr. Cummings. I would like to meet them. So you said May 
31st?
    Ms. Dickerson. Yes, sir.
    Mr. Cummings. You have until June 15th. All right?
    Ms. Dickerson. Yes, sir.
    Mr. Cummings. Let me just go on. The reason why I am so 
emphatic about that is you get tired. You get tired of people 
making commitments, and then people assume, and I am not 
talking about you all. I am just talking about what I have seen 
in 14 years.
    They will say, okay, we don't have to worry about Cummings. 
He will have a hearing two years from now. Damage done. What 
the hell.
    That is what happens here in this Congress over and over 
and over and over again, and that is why we are going to have 
this June 15th hearing or thereabout. We won't make it any 
earlier than June 15th, but it will be right around that date, 
assuming we can fit into our schedule. But there will be a 
hearing.
    What else do we have? The military academy, the Academy, 
the Coast Guard Academy.
    Are you in charge, Rear Admiral, of the Chief of Diversity? 
Does that person come under you.
    Admiral Breckenridge. Yes, Mr. Chairman.
    Mr. Cummings. I notice you have an Hispanic Association of 
Colleges and Universities liaison person, is that right?
    Admiral Breckenridge. That is correct, Mr. Chairman.
    Mr. Cummings. How long has that person been in place?
    Admiral Breckenridge. The individual that is there right 
now, I believe.
    Mr. Cummings. No, no, no. The position itself.
    Admiral Breckenridge. I will have to get back to you, Mr. 
Chairman. I don't recollect the exact year we started it. We 
have had two people there.
    Mr. Cummings. Two?
    Admiral Breckenridge. Yes, sir, over two tours. But exactly 
the length of those two tours, I will get back to you, Mr. 
Chairman.
    Mr. Cummings. How many Hispanic colleges and universities 
are there, do you know?
    Admiral Breckenridge. I don't remember off the top of my 
head. I remember half of them are two-year serving 
institutions.
    Mr. Cummings. Do you know how many historically black 
colleges and universities there are?
    Admiral Breckenridge. I did. I can't pull that off the top 
of my head at this moment, Mr. Chairman.
    Mr. Cummings. There is well over 100. Well, over 100.
    I was just wondering as I listen to your testimony. I was 
wondering if you all had explored possibly have a liaison with 
those colleges and universities.
    I must plead and give you this fact. I am a graduate of an 
historically African American college. My daughter is a 
graduate, and we have a 14 year old who is going to be a 
graduate. She doesn't know it yet, but she will be.
    [Laughter.]
    Mr. Cummings. And I am on the board of an historically 
black college. So I am just wondering, and I know what we go 
through trying to help these students get to where they have to 
go.
    As I said a little bit earlier, and I know you were aware 
of this, the Admiral, to his credit, kindly took up a 
phenomenal amount of time just within the last month to speak 
at Morgan State University in Baltimore. They tell me that he 
did an outstanding job. So I am just trying to figure out how 
we can possibly help this effort by having a liaison.
    Don't get me wrong. I think it is very important, very 
important to have the Hispanic American college and 
universities liaison. You know how some folks do. They will cut 
out one thing and substitute with another. I don't want that.
    What I am trying to figure out is can we look into that 
possibility?
    Admiral Breckenridge. We can certainly look into that, sir. 
I am just trying to think across. HACU became a venue that we 
could reach many colleges through one central point rather than 
having to have representatives at every single college which is 
why we agreed to put the liaison there.
    Mr. Chairman, we have been working with Morgan State and a 
number of other historically black colleges on two venues, 
specifically on our CSPI program, because in talking to the 
Dean of Engineering at Morgan State he told me his single 
biggest challenge was while he has tremendously talented 
individuals who come in, they struggle to find money to be able 
to finish their education. Well, the CSPI program helps with 
that because it pays for two years of education.
    We have also done the same outreach with North Carolina 
A&T.
    We have a broader outreach than that to historically black 
colleges and universities. Mr. Curt Odom has been working at 
Morris College and has four individuals from that college who 
are interested in coming into the Coast Guard. So we are trying 
to use our executive corps to outreach.
    The other thing that I am trying to leverage on this next 
cycle is looking at our internship programs and providing 
internships both for our blue collar work and for our other 
civilian positions, so that we look at both of those venues and 
look at full opportunities when we go out there.
    Mr. Cummings. I am glad you said that. The internships are 
very important, but let me just tell you this. I think the CSPI 
program is also very important.
    At Morgan State University, the school I sit on the board 
of, we have to let go so many students not because they are not 
brilliant, because they don't have the money. Our research has 
shown if they drop out, there is a 60 to 70 percent chance they 
will never come back. I mean these are talented kids.
    So if there is some kind of way we can get the word out 
even more so about the CSPI, and I am not saying that everybody 
will be anxious to be part of the Coast Guard, but the fact is 
they have a choice between getting their college education and 
having to go through this process and having that education 
significantly paid for, I guess. Is that right?
    Admiral Breckenridge. That is correct. They enlist in the 
Coast Guard. So they get paid allowances while they are going 
to school. They get two years of school paid for while they are 
earning a salary.
    Mr. Cummings. What I am saying is that they have a choice 
between that and not completing college at all. I think some of 
them will say, you know what, I am going to go through the CSPI 
program and complete my college education and pay my duty to my 
Country, and then hopefully they won't die with their dreams 
and aspirations in the casket, locked up.
    Admiral Breckenridge. Yes, Mr. Chairman. On our 
internships, we have looked at talking to the dean. We have 
looked at two internships for the School of Engineering. We 
know that Morgan State is a high producer of engineers, and so 
we are interested in working with them.
    Mr. Cummings. I am hoping that you will do that with all. 
We have a number of schools, historically black colleges and 
universities that need the same kind of attention. That is one 
of the reasons why I asked you about the liaison position 
because there are so many, and they are so often unknown, 
unseen, unnoticed, unappreciated, unapplauded and unsung.
    Admiral Breckenridge. Several comments, Mr. Chairman: 
First, through the CSPI program, we are looking at our 
graduates in the National Naval Officers Association. We have 
looked across all of those colleges and looked at where we have 
graduates and we can use them, and that is that ambassador 
program that I was talking about.
    When we look at the executive outreach that we talked 
about, first of all, we want the executives to have something 
to take to the table--not to show up, and that is good, and we 
can talk about it. But we do believe we have to have something 
to take to the table to talk to the provosts or the deans.
    In with that, we also want at least two junior officers, a 
mid-grade and a junior officer for linkage into the student 
population in addition to the recruiters who process the 
paperwork but for relevancy to that student population.
    That also sets up a mentoring relationship. Ultimately, I 
will move on, Mr. Chairman. The schools that I choose, there 
will be someone who comes behind me who will also go into that 
school, but we will replace those officers. So if I take an 04 
and an 02, as that 04 becomes more senior, the 02 becomes more 
senior. We will bring more in. So we have a chain that becomes 
unbroken.
    I think part of our challenge has been that we had created 
relationships, including with Morgan State in the past, which 
we did not sustain. We must have sustainable relationships to 
have credibility to go into these communities and talk about 
the opportunities they have and for people to take us 
seriously.
    Mr. Cummings. I just have two more questions, and then I am 
finished. Ms. Dickerson, you wrote in your testimony that a 
decision to seek the outside review of the Coast Guard civil 
rights programs in 2008 was ``neither an offensive nor a 
defensive undertaking.'' Do you remember writing that?
    Ms. Dickerson. Yes, sir.
    Mr. Cummings. ``The decision was deliberate. I had taken 
steps, and while they were bearing fruit I thought the Coast 
Guard could gain from outside perspective.'' Do you remember 
that?
    Ms. Dickerson. Yes, sir.
    Mr. Cummings. Can you explain what you meant by that?
    Ms. Dickerson. Yes, sir.
    Mr. Cummings. You go ahead, and then I will have a follow-
up. Go ahead.
    Ms. Dickerson. In part, as I know I have stated to you 
before, I came to Coast Guard from the U.S. Commission on Civil 
Rights, and there are other people I have had opportunity to 
bring into the organization who have come in from other 
agencies as well.
    I think, well, sometimes what appeared to be occurring was 
there is very much a construct for civil rights as it is in 
Coast Guard, and that seemed to be a very entrenched process. I 
was new to the military, and I wanted to validate some of what 
I knew had worked in civilian agencies in Coast Guard, but I 
also wanted to be very much aware of that I was in a different 
element as well.
    And so, I thought I would really benefit from a third party 
perspective on that in order to kind of validate the direction 
I was taking and to steer the organization and the civil rights 
function in a way that I thought would bring really a lot of 
integrity and that the workforce could access it better and 
have a lot more trust in the process.
    So it was a validating exercise in that I gave the Booz 
Allen team everything, every piece of data that I had 
collected. I opened my records to them and gave them my plan of 
action, my strategic plan, and asked them: Please tell me what 
you see here. What am I missing? Are there additional data 
points? Is this a good, informed direction to be going?
    I am in a new military environment. I want to be sure I am 
not trying to graft something into an environment that may not 
work because, foremost, we are certainly there for national 
security. I don't want to circumvent the commanding officers' 
authority and things of that nature.
    Just, I had a vision, and I believe it can work, and it 
will work with Coast Guard. I am sure it will bring more 
integrity to the process.
    So it wasn't a defensive move in terms of trying to prevent 
anything, and it wasn't something where I was trying to push. I 
just really wanted to get a third party perspective and benefit 
from other data points from someone who was external, from an 
entity external to Coast Guard.
    Mr. Cummings. But the self-assessments were reporting the 
same kind of things that you had almost assumed, right?
    Ms. Dickerson. The self-assessments look at workforce 
numbers, and I wanted specifically to look at the EEO process 
itself in terms of people entering the complaint process and 
how that could have more integrity.
    Mr. Cummings. All right. You mentioned some 53 things, and 
you said you had done 10.
    Ms. Dickerson. Yes, sir.
    Mr. Cummings. Eight were, I guess, about to be done.
    Ms. Dickerson. Yes, sir.
    Mr. Cummings. That leaves quite a few, right?
    Ms. Dickerson. Yes, sir, absolutely.
    Mr. Cummings. So you have 10 and 8, 18 from 53.
    Ms. Dickerson. Yes.
    Mr. Cummings. That is quite a few.
    Ms. Dickerson. Yes, sir.
    Mr. Cummings. So what is going to happen? What is going to 
happen with the other ones?
    I mean that is nice, but what happens with all these other 
things?
    Ms. Dickerson. I have an action team right now that is 
prioritizing them, and all of them are now underway. For 
example, there was a recommendation that we issue standard 
operating procedures. We have standard operating procedures for 
our complaints process but not for our other activities.
    Mr. Cummings. All right. Let me cut you short. This is what 
I would like for you to do, you and the Rear Admiral.
    Ms. Dickerson. Yes, sir.
    Mr. Cummings. Since we are going to have our hearing around 
or about June 15th, I would like for you all within the next 
few days to let me know what you expect to have achieved out of 
that 53 by that time so that we can hold you to it. All right?
    Ms. Dickerson. Yes, sir.
    [Information follows:]
    [GRAPHIC] [TIFF OMITTED] 48646.021
    
    [GRAPHIC] [TIFF OMITTED] 48646.022
    
    [GRAPHIC] [TIFF OMITTED] 48646.023
    
    [GRAPHIC] [TIFF OMITTED] 48646.024
    
    [GRAPHIC] [TIFF OMITTED] 48646.025
    
    [GRAPHIC] [TIFF OMITTED] 48646.026
    
    [GRAPHIC] [TIFF OMITTED] 48646.027
    
    [GRAPHIC] [TIFF OMITTED] 48646.028
    
    Mr. Cummings. Well, I want to thank all of you for being 
with us today and this evening. Decisive actions are needed to 
bring the Coast Guard civil rights programs including the Equal 
Employment Opportunity programs to full compliance with all 
applicable regulations and, frankly, with the standards that 
the Subcommittee expects of the United States Coast Guard.
    I am encouraging the senior leadership of the Coast Guard 
to examine closely the issues we have discussed today, to probe 
deeper into their own organization, to identify and break down 
any barriers that may limit opportunities for anyone and to put 
specific and targeted reforms in place.
    As I have said, we will be meeting again on or about June 
the 15th so that we can evaluate what progress has been made.
    Given the urgency of the changes needed in the Coast 
Guard's civil rights program, I intend to ask the Government 
Accountability Office to conduct an examination of the 
Service's progress in a year's time and to report its findings 
back to the Subcommittee. In this way, the Subcommittee will be 
able to receive a report of an objective third party that will 
be responsive to the data request posed by the Congress.
    I will remind you, when we asked Booz Allen to come and 
testify they said that they would not. So maybe we can get the 
GAO to do so.
    I am hopeful that for the benefit of all the Coast Guard's 
officers, members and employees the GAO will be able to report 
real progress towards implementing an efficient and effective 
civil rights service program that adequately protects the civil 
rights of all Coast Guard personnel.
    I consider this to be an urgent matter. I want to thank you 
for understanding that.
    I want to thank you for your efforts. I know this hearing 
has been a little tough at times, but I want to thank you for 
everything you have done. I really mean that.
    Progress can seem like it is not moving at the pace that we 
all want it to, but I can see that you all are making the 
efforts to make that happen.
    And so, this meeting is adjourned.
    [Whereupon, at 4:33 p.m., the Subcommittee was adjourned.]
    [GRAPHIC] [TIFF OMITTED] 48646.029
    
    [GRAPHIC] [TIFF OMITTED] 48646.030
    
    [GRAPHIC] [TIFF OMITTED] 48646.031
    
    [GRAPHIC] [TIFF OMITTED] 48646.032
    
    [GRAPHIC] [TIFF OMITTED] 48646.033
    
    [GRAPHIC] [TIFF OMITTED] 48646.034
    
    [GRAPHIC] [TIFF OMITTED] 48646.035
    
    [GRAPHIC] [TIFF OMITTED] 48646.036
    
    [GRAPHIC] [TIFF OMITTED] 48646.037
    
    [GRAPHIC] [TIFF OMITTED] 48646.038
    
    [GRAPHIC] [TIFF OMITTED] 48646.039
    
    [GRAPHIC] [TIFF OMITTED] 48646.040
    
    [GRAPHIC] [TIFF OMITTED] 48646.041
    
    [GRAPHIC] [TIFF OMITTED] 48646.042
    
    [GRAPHIC] [TIFF OMITTED] 48646.043
    
    [GRAPHIC] [TIFF OMITTED] 48646.044
    
    [GRAPHIC] [TIFF OMITTED] 48646.045
    
    [GRAPHIC] [TIFF OMITTED] 48646.046
    
    [GRAPHIC] [TIFF OMITTED] 48646.047
    
    [GRAPHIC] [TIFF OMITTED] 48646.048
    
    [GRAPHIC] [TIFF OMITTED] 48646.049
    
    [GRAPHIC] [TIFF OMITTED] 48646.050
    
    [GRAPHIC] [TIFF OMITTED] 48646.051
    
    [GRAPHIC] [TIFF OMITTED] 48646.052
    
    [GRAPHIC] [TIFF OMITTED] 48646.053
    
    [GRAPHIC] [TIFF OMITTED] 48646.054
    
    [GRAPHIC] [TIFF OMITTED] 48646.055
    
    [GRAPHIC] [TIFF OMITTED] 48646.056
    
    [GRAPHIC] [TIFF OMITTED] 48646.057
    
    [GRAPHIC] [TIFF OMITTED] 48646.058
    
    [GRAPHIC] [TIFF OMITTED] 48646.059
    
                                    

</pre></body></html>
